Joshua S. Lipshutz
Direct: +1 202.955.8217
Fax: +1 202.530.9614
JLipshutz@gibsondunn.com

May 3, 2021
VIA ELECTRONIC FILING AND OVERNIGHT MAIL
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Cal Cartage Transp. Express, LLC v. California, No. 20-1453

Dear Mr. Harris:
I am counsel of record for petitioners in the above-referenced case. Pursuant to Rule
37.2(a) of the Rules of this Court, petitioners hereby grant blanket consent to the filing of
amicus curiae briefs in support of either or no party, provided that the amicus curiae brief
otherwise complies with the Rules of this Court.
Sincerely,

Joshua S. Lipshutz

